No. 20-1448
In the

Supreme Court of the United States
DONNA CORBELLO,
Petitioner,
v.
FRANKIE VALLI, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

BRIEF IN OPPOSITION
Daniel M. Mayeda
Louis P. Petrich
Ballard Spahr LLP
2029 Century Park East,
Suite 1400
Los Angeles, CA 90067
(424) 204-4400

David S. Korzenik
Counsel of Record
Terence P. Keegan
Zachary M. Press
Miller Korzenik Sommers
Rayman LLP
The Paramount Building
1501 Broadway, Suite 2015
New York, NY 10036
(212) 752-9200
dkorzenik@mkslex.com

Todd E. Kennedy
Maximiliano D. Couvillier III
Kennedy & Couvillier, PLLC
3271 E. Warm Springs Road
Las Vegas, NV 89120
(702) 605-3440
Counsel for Respondents
June 4, 2021
304988

A
(800) 274-3321 • (800) 359-6859

i
RESTATEMENT OF QUESTIONS PRESENTED
Marshall Brickman and Rick Elice wrote the script
for Jersey Boys: The Story of Frankie Valli & The Four
Seasons. Frankie Valli and Bob Gaudio were the prime
sources for the script; and the producers and owners of
the show.
Tommy DeVito was a member of The Four Seasons.
He left the band in 1972 on hostile terms. The Writers
researched a wide range of materials about the band. They
interviewed many sources, among them, Valli, Gaudio,
producer Bob Crewe, and also DeVito. DeVito later sent
the Writers an Autobiography he co-wrote in the late 80’s
with a music journalist and lawyer, Rex Woodard who
passed away in 1991. Petitioner Corbello is Woodard’s
heir. DeVito settled with Corbello before trial and before
DeVito passed away in 2020.
Corb el lo c l a i m s Je r se y Bo ys i n f r i ng e s t he
Autobiography. At issue: two historical works. Respondents
asserted that any putative similarities involved facts,
clichés, non-actionable phrases, scènes-à-faire, real
people, actual places and true events in the lives of Valli
and Gaudio—among them Gaudio’s own stories about
songs written by Gaudio (not DeVito); stories about
events in Valli’s life (not DeVito’s). The Circuit ruled
unanimously and “unremarkably” that none of these
alleged “similarities” can be owned or protected.
A more accurate statement of the Question Presented
is: Whether Plaintiff, co-owner of the Autobiography,
can get around the long and widely accepted principle
that historical facts and events are not protected under

ii
copyright law by claiming that the facts and events
were really “fictionalized” and “made up” when a) The
Autobiography by its own unequivocal language repeatedly
declared itself to be the “straight talking” truth about
Frankie Valli, “an alternative to the bogus biographies
. . . about The Four Seasons” etc.; b) The Autobiography
was marketed (without success) to about 29 publishers by
Woodard and later by Petitioner with cover letters (see
Supp.ER.96-105 1) promoting the Autobiography as “the
truth” about The Four Seasons and which “documents
the history of The Four Seasons”; c) when those same
letters highlighted as “true” revelations about some of the
identical events that Petitioner now calls “fiction”; d) when
Petitioner’s counsel in his first Complaints in this action
touted the Autobiography as the work of a serious music
journalist/historian based on investigative research
and FOIA requests; and as the “complete and truthful
chronicle of The Four Seasons” (ER13048); e) when there
was no evidence in the Record to support any claim to
“fiction”; and f) when Petitioner Corbello testified that she
could not say whether any portion of the Autobiography
was fiction or not (ER5234; ER5266).

1. Docket entries in Ninth Circuit Appeal No. 17-16337 are
cited “R__.” References to Petitioner’s Opening Brief, at R49-1,
are cited “OB__.” References to Respondents’ Answering Brief, at
R74, are cited “AB__.” References Petitioner’s Excerpts of Record
in the court below are cited “ER__.” References to Respondents’
Supplemental Excerpts of Record, at R71 are cited as “Supp.ER.
__.”

iii
Rule 29.6 Notation
Pursuant to Rule 29.6, Respondents Frankie Valli,
Robert J. Gaudio, Marshall Brickman, Eric S. Elice, Des
McAnuff, and Michael S. David are individuals, with no
parent corporation, stock or shareholders. Respondents
Dodger Theatricals, Ltd., JB Viva Vegas, L.P, Jersey Boys
Broadway Limited Partnership, DSHT, Inc., Skunk, Inc.,
and Getting Home, Inc. are closely-held corporations of
which no publicly held company owns 10% or more.

iv
TABLE OF CONTENTS
Page
RESTATEMENT OF QUESTIONS PRESENTED . . . i
Rule 29.6 Notation . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . vi
INTRODUCTION & THE OPINION BELOW  . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 3
THE CONSISTENT AND CLASSIC LINE
OF HISTORICA L WORK S RU LING S
ACROSS THE CIRCUITS MAKES THIS
CASE UNWORTHY OF CERTIORARI . . . . . . . . . 3
THE FICTION PLOY and PETITIONER’S
LATE FICTIONALIZATION TURN  . . . . . . . . . . . 9
P E T I T I O N E R ’ S “ F IC T I O N ” P L O Y
DESERVES NO ATTENTION FROM THIS
COURT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
WHETHER A WORK IS “PUBLISHED” OR
“UNPUBLISHED” IS A MEANINGLESS
DISTINCTION IN THIS CASE . . . . . . . . . . . . . . . 15

v
Table of Contents
Page
PETITIONER’S MISCHARACTERIZATIONS
OF THE RECORD AND THE IRRELEVANCE
OF ACCES S W H ICH WA S A LWAY S
CONCEDED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
REASONS FOR DENYING THE PETITION  . . . . . 21
I.

The Ninth Circuit’s Affirmance Creates
No “Con f l ict ” With Other Ci rcu it s
Or “Tension” With This Court . . . . . . . . . . . . . . 21
A. The Affirmance Is in Accord With the
Long-Followed and Consistent Rulings
of Other Circuits and This Court . . . . . . . . 21
B. T h e Te nt h C i r c u i t ’s Ja c o b s e n
Decision Is Plainly Unhelpful to
Petitioner and Is Not in Conf lict
with Long-Prevailing Case Law  . . . . . . . . 22
C. The Ninth Ci rcuit’s A ff i r mance
Would Not Alter Harper & Row  . . . . . . . . 24

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

vi
TABLE OF CITED AUTHORITIES
Page
Cases
Apple Computer, Inc. v Microsoft Corp.,
35 F.3d 1435 (9th Cir. 1994) . . . . . . . . . . . . . . . . . . . . . 1
Bachman v. Belasco,
224 F. 817 (2d Cir. 1915) . . . . . . . . . . . . . . . . . . . . . . . 24
Baker v. Selden,
101 U.S. 99 (1879)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Benay v. Warner Bros. Entm’t, Inc.,
607 F.3d 620 (9th Cir. 2010) . . . . . . . . . . . . . . 4, 7, 9, 20
Campbell v. Acuff-Rose Music, Inc.,
510 U.S. 569 (1994)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Crane v. Poetic Product Ltd.,
593 F. Supp. 2d 585 (S.D.N.Y 2009) . . . . . . . . . . . . . . . 8
Feist Publications, Inc. v. Rural Tel. Serv. Co.,
499 U.S. 340 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . . 4, 21
Funky Films, Inc. v.
Time Warner Entm’t Co., L.P.,
462 F.3d 1072 (9th Cir. 2006) . . . . . . . . . . . . . . . . . . . 19
Harper & Row Publishers v. Nation Enters.,
471 U.S. 539 (1985) . . . . . . . . . . . . . . . . . . . . . . . passim

vii
Cited Authorities
Page
Hoehling v. Universal City Studios, Inc.,
618 F.2d 972 (2d Cir. 1980) . . . . . . . . . . . . . . . . . passim
Houts v. Universal City Studios, Inc.,
603 F. Supp. 26 (C.D. Cal. 1984)  . . . . . . . . . . .  7, 11, 14
Idema v. Dreamworks Inc.,
162 F. Supp. 2d 1129 (C.D. Cal. 2001) . . . . . .  11, 14, 19
Jacobsen v. Deseret Book Co.,
287 F.3d 936 (10th Cir. 2002) . . . . . . . . . . . . . 22, 23, 24
Jacobsen v. Deseret Book Co.,
No. 2:99–CV–893K, 2001 WL 1806858
(D. Utah Jan. 12, 2001) . . . . . . . . . . . . . . . . . . . . . . . . 23
Lake v. Columbia Broad. Sys.,
140 F. Supp. 707 (S.D. Cal. 1956) . . . . . . . . . . . . . . . . 11
Miller v. Univ. City Studios, Inc.,
650 F.2d 1365 (5th Cir. 1981) . . . . . . . . . . . . . . . . . . . 22
Myers v. Mail & Express Company,
36 C.O. Bull. 478 (S.D.N.Y. 1919) . . . . . . . . . . . . . . . . . 5
Narell v. Freeman,
872 F.2d 907 (9th Cir. 1989) . . . . . . . . . . . . . . . . passim
Nash v. CBS, Inc.,
899 F.2d 1537 (7th Cir. 1990) . . . . . . . . . . . . . . . passim

viii
Cited Authorities
Page
Norman v. Columbia Broad. Sys., Inc.,
333 F. Supp. 788 (S.D.N.Y. 1971) . . . . . . . . . . . . . . . . . 5
Oliver v. Saint Germain Found.,
41 F. Supp. 296 (S.D. Cal. 1941) . . . . . . . . . . . . . . . 7, 12
Religious Tech. Ctr. v. Scott,
869 F.2d 1306 (9th Cir. 1989) . . . . . . . . . . . . . . . . . . . . 8
Salinger v. Random House, Inc.,
811 F.2d 90 (2d Cir. 1987) . . . . . . . . . . . . . . . . 15, 25, 26
See v. Durang,
711 F.2d 141 (9th Cir. 1983)  . . . . . . . . . . . . . . . . . . . . 20
Shipman v. R.K.O. Radio Pictures, Inc.,
20 F. Supp. 249 (S.D.N.Y. 1937), aff’d,
100 F.2d 533 (2d Cir. 1938) . . . . . . . . . . . . . . . . . . . . . 19
Sinicola v. Warner Bros., Inc.,
948 F. Supp. 1176 (E.D.N.Y. 1996) . . . . . . . . . . . . . . . 20
Vallejo v. Narcos Prods. LLC,
833 F. App’x 250 (11th Cir. 2020) . . . . . . . . . . . . . . . . . 4
Walker v. Time Life Films, Inc.,
615 F. Supp. 430 (S.D.N.Y. 1985), aff’d,
784 F.2d 44 (2d. Cir. 1986) . . . . . . . . . . . . . . . . . . . . . 20

ix
Cited Authorities
Page
Statutes and Other Authorities
U.S. Const. Art. I § 8 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
1 Nimmer on Copyright § 2.11(A) . . . . . . . . . . . . . . 1, 7, 22
4 Nimmer on Copyright § 13.03(A)  . . . . . . . . . . . . .  17, 20
17 U.S.C. § 107 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25, 26
17 U.S.C. § 102(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Fed. R. Civ. P. 12(b)(6) . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
1992 U.S.C.C.A.N. 2553 . . . . . . . . . . . . . . . . . . . . . . . . . . 26

1
INTRODUCTION & THE OPINION BELOW
Two signal features of the Ninth Circuit’s unanimous
opinion and the oral argument before the Panel deserve
attention. They are telling:
The Decision “rests” on an “unremarkable
proposition” of law: The Ninth Circuit introduced its
legal analysis with a statement which unambiguously
undoes any grounds for seeking certiorari. The ruling
states that it is not based at all on any new or controversial
proposition of law:
Our decision rests primarily on “ the
unremarkable proposition that facts, in and of
themselves, may not be form [sic] the basis for
a copyright claim. 1 Nimmer on Copyright §
2.11(A). . . . [A] nonfiction biography like the work
in this case is necessarily structured around
historical facts and events, not themselves
copyrightable.
On close examination, each of the alleged
similarities between the Play and the Work are
based on historical facts, common phrases, and
scenes-a-faire (scenes that are indispensable, or
at least standard, in the treatment of a given
idea,” Apple Computer, Inc. v Microsoft Corp.,
35 F.3d 1435, 1444 (9th Cir. 1994) . . . or elements
that were treated as facts in the Work and are
thus unprotected by copyright, even though now
challenged as fictional. Neither Valli nor the
other defendants violated Corbello’s copyright
by depicting in the Play events in their own lives

2
that are also documented in the Work. Because
the Play did not copy any protected elements of
the Work, we conclude, there was no copyright
infringement.
R136 (Opinion dated Sept. 8, 2020), attached as Appendix
A to Petition for Writ of Certiorari, at 3a (“App.” or
“Opinion”).
Petitioner Admitted that the Work was “represented
to be true”: At Oral Argument, Judge Tashima, speaking
of the DeVito Autobiography, asked one question of
Petitioner’s counsel:
Judge Tashima: “Is it [the Autobiography]
represented to be true?”
Petitioner’s counsel: “Sure.”
Judge Tashima had no further questions for Petitioner’s
counsel.
R1 2 6 , a v a i l a bl e a t w w w.yo ut u b e . c o m /
watch?v=wcX2luGbxco&t=163s (queued to time index
2:43).
Yet Petitioner’s counsel still nurses, as he did on
appeal, the notion that any alleged similarities of historical
fact might have been “fictionalized.” And he claimed,
without any support in the record – literally none –
that because the work was “unpublished” it could still
theoretically be called, recharacterized or retroactively
declared “fiction.” If one can magically recharacterize
non-fiction as “fiction,” then maybe one might be able to

3
get some added protection that the original work was not
entitled to in the first place. That is the sleight-of-hand
that this Petitioner hopes to play in this disingenuous
last-minute effort to claim ownership of facts and events
that no one can or should own.
The entire “fictionalization” ploy not only lacks any
foundation in the record, but it is a creature of Petitioner’s
counsel’s own pure speculation. Petitioner’s counsel
gamely offers that because the Work was “unpublished,”
“Indeed, the subject statements may never have appeared
in the published text, or, may have been prefaced by a
disclaimer.” Petition for Writ of Certiorari, at 5, n.1 (“Pet.”)
(emphasis added). This wishful speculation in the face of
firm and repeated assertions that the Autobiography was a
work of sound historical fact, disposes of this Petition. No
court has to accept this kind of disingenuous back-filling –
whether it does so under the name of “copyright estoppel”
or “asserted fact.” Petitioner’s speculative “fiction” ploy
fails under either name.
STATEMENT OF THE CASE
THE CONSISTEN T A N D CL A S SIC LIN E OF
HISTORICAL WORKS RULINGS ACROSS THE
CIRCUITS MAKES THIS CASE UNWORTHY OF
CERTIORARI
The Baseline Historical Works Cases: The baseline
law on historical works has been in place across all
Circuits for many decades; in fact over a century. The
lesser level of copyright protection afforded historical
works has been restated and reaffirmed numerous times
without dispute in Hoehling v. Universal City Studios,
Inc., 618 F.2d 972 (2d Cir. 1980), Narell v. Freeman, 872

4
F.2d 907 (9th Cir. 1989) (following Hoehling), Benay v.
Warner Bros. Entm’t, Inc., 607 F.3d 620 (9th Cir. 2010)
(following Hoehling and Narell), Nash v. CBS, Inc., 899
F.2d 1537 (7th Cir. 1990), Vallejo v. Narcos Prods. LLC, 833
F. App’x 250 (11th Cir. 2020), Harper & Row Publishers
v. Nation Enters., 471 U.S. 539, 105 S.Ct. 2218, 85 L. Ed.
2d 588 (1985) and Feist Publications, Inc. v. Rural Tel.
Serv. Co., 499 U.S. 340, 111 S.Ct. 1282, 113 L. Ed. 2d 358
(1991), and in numerous other cases that follow them and
by commentators including Nimmer.
When it comes to historical works, the lesser
protection afforded them is intended to ensure that there
is breathing room for history. It is intended to ensure that
the monopoly of copyright is not extended to history in
any broad sense: not to portrayals or characterizations of
real people (as might be an issue if DeVito were a fictional
character); and not to broader similarities in the depiction
of historical events and their causes (as might be an issue
with fiction). That is what Narell and Benay and all the
other historical works cases are about. There is nothing
new or novel about any of them. Judge Learned Hand
articulated the very same view 100 years ago:
[N]ot only are all the facts recorded in history
in the public domain, but since the narration
of history must proceed chronologically, - or at
least such is the convention, - the order in which
the facts are reported must be the same in the
case of a second supposed author. There cannot
be any such thing as copyright in the order of
presentation of the facts, nor, indeed, in their
selection, although into that selection may go
the highest genius of authorship, for indeed,
history depends wholly upon selection from the

5
undifferentiated mass of recorded facts.” Myers
v. Mail & Express Company, 36 C.O. Bull. 478,
479 (S.D.N.Y. 1919) (unreported).
See Norman v. Columbia Broad. Sys., Inc., 333 F.
Supp. 788, 797 (S.D.N.Y. 1971) (emphasis added), citing
Judge Hand, whose ruling is still a touchstone. In
the Autobiography there is nothing even close to any
such unprotected “ingenious” selection. In the case at
bar Petitioner can only point to putative but meager
similarities1 of phrases found in very different treatments
of the stories about The Four Seasons’ (the “Band”) main
hit songs. The selection of those hit songs are more than
obvious fare for any history of any band. And that is
particularly so in a play like Jersey Boys in which those
same hit songs are performed and worked into the script.
Petitioner cannot own any of that. It is frivolous to
suggest otherwise. The Ninth Circuit recognized and
addressed that:
There is no viable arrangement and selection
argument here, both because the unprotectable
elements that appear in both the Play and the
Work are not “numerous enough” (Citations
omitted) and because, even if there were an
original synthesis of those elements in the
Work, it is not present in the Play. The
1. The Circuit Court’s Opinion reviews in very precise
detail each of the alleged similarities and why they are either
not protected or simply too different or too trivial (i.e., the use
of Mary’s name) to count as similarities. The remaining putative
similarities are also unprotected clichés and phrases, unprotected
in any kind of work, fiction or non-fiction.

6
selection of the true stories behind the band’s
most popular songs and the arrangement of
those stories in roughly chronological order is
not original and so not protectable by copyright.
App. 11a, n.2. (emphasis added).
The Ninth Circuit, based on its examination of the
two works, also saw clearly that in the bigger picture, the
Autobiography and the Play present the stories of the Band’s
songs and its history from very different perspectives and
interpretations. The Ninth Circuit emphasized:
The Work and the Play depict those historical
events from different perspectives, w ith
different characterizations of the people
involved, in different media, and communicating
a different overall message.
Id. This observation puts the alleged similarities in
perspective. They are microscopic – involving only limited
parallels in unprotected cliches and phrases – especially
when they are seen in the broader comparison of the
works. The Play has a dramatic arc. The Autobiography
has no dramatic arc or structure; it just reports one
disconnected anecdote after another in pure chronology.
As Petitioner recognized in a letter to DeVito’s
counsel, the Autobiography lacks “conflict,” which the Play
features. Supp.ER.106. She acknowledged that it would
need to be re-written to include conflict between band
members if it were to become “saleable.” See id. When
DeVito declined to make these changes, i.e., to make it
more like the Play (including adding music to which he
had no rights), Corbello sued.

7
The Ninth Circuit ruling cites to most of the standard
legal chestnut cases: Hoehling, Narell, Benay, and
Nash among many others. And in citing Feist, the panel
observed: “It is thus a feature of copyright law, not a bug
or anomaly, that an author who deals in fact rather than
fiction receives incomplete copyright protection for the
results of his labor.” App. 8a-9a.
Historical works of other plaintiffs – works that
are loaded with spectacularly more hypothetical and
speculative historical accounts than DeVito/Woodard’s
– have still foundered on the very same historical works
doctrine:
As the Ninth Circuit recounted:
“Given an express representation that the work
is factual, the case law indicates that the author
will be estopped from claiming fictionalization,
even if most readers would not believe the
representation.” 1 Nimmer on Copyright § 2.11.
Claimed fictions that have been treated as facts
for copyright purposes under this approach
include a novel hypothesis about the cause of
the Hindenburg explosion, Hoehling, 618 F2d
at 978-79; a theory that John Dillinger was not
killed by law enforcement and instead retired
to the West Coast, Nash, 899 F2d. at 1538, 1541;
and a “true crime” book with fantastical stories,
Houts, 603 F.Supp. at 30; And representations
that the author was the scribe of a spiritual
power, Oliver, 41 F.Supp. at 297.
App. 19a-20a.

8
None of this is novel or worthy of revisiting in a
certiorari petition. The Ninth Circuit went on to cite other
rulings in which disingenuous claims to “fictionalization”
have been briskly rejected (see App. 24a-25a), Crane v.
Poetic Product Ltd. 593 F. Supp. 2d 585 (S.D.N.Y 2009)
among them. But the bottom line is that the judicial
estoppel doctrine “protect[s] against a litigant playing
“fast and loose with the courts.” App. 20a (quoting
Religious Tech. Ctr. v. Scott, 869 F. 2nd 1306, 1311 (9th Cir.
1989) (Hall, J., dissenting). In claiming “fictionalization,”
this Petitioner was playing fast and loose with the District
Court, with the Ninth Circuit; and now in this Petition.
Petitioner’s canard that the Opinion’s “asserted facts”
doctrine is a “newly coined” doctrine about fictionalization
claims is specious. The Opinion is clear that it is applying
the “copyright estoppel” doctrine as it was so named and
so applied in a number of the older cases it relied on. It
just gives a new name to that long-recognized doctrine.
The Opinion considers the “asserted facts” doctrine a
better name for the old “estoppel” rule because it does
not suggest any wrongdoing on the part of a plaintiff. But
such duplicitous unfairness is precisely what is in play
here with Corbello’s “we could have made it up” claim.
A work should be taken for what it presents itself to be.
Corbello’s claim, that it should be treated otherwise, is
disingenuous at best. Judge Tashima’s crisp question shuts
down this Petition.

9
THE FICTION PLOY and PETITIONER’S LATE
FICTIONALIZATION TURN
The central feature of this Petitioner’s fictionalization
claim was belatedly manufactured by her counsel after
Petitioner collided with the classic line of cases that
afforded less protection to historical works.
Not only had the Autobiography and Woodard’s
marketing letters touted the Work’s historical veracity,
but the initial Complaints in this action also touted the
Work as one of straight and highly researched history, the
“complete and truthful chronicle of the Four Seasons.”
ER13048. Among other things, the first two Complaints
highlighted the investigative effort behind it and the FOIA
requests that Woodard had issued to unearth the “secret
past” of The Four Seasons as well as other “discover[ies]”
that he had made about their lives. Neither sweat nor
discoveries are protected under 17 U.S.C. §102(b). See,
e.g., AB43.
But on briefing of the Motion To Dismiss in 2009, 2
Petitioner was confronted with the Hoehling, Narell
and Benay line of cases and the lower level of protection
that the Autobiography could expect. Caught off guard,
Petitioner argued that Hoehling (which Narell cited with
approval) had been “eviscerated” and that Respondents’
counsel had “invented” the thin copyright doctrine
regarding facts and historical events. ER7772; ER6801.
2. The Court did not then apply the copyrightability test
to any of the alleged similarities, but allowed the claim to pass
the 12(b)(6) motion merely because the Plaintiff’s work and the
Defendants’ work were identified.

10
Thereafter Petitioner’s counsel turned to claiming
that the Autobiography was “fictionalized” and her expert
so opined without the slightest factual foundation. But that
was never the way Woodard saw it; he described himself
to publishers as a music “historian” and journalist and
his work as one that discloses “the truth” about the band
members’ past. Supp.ER.96-97. That was not the way
the Autobiography presented itself either; it promised
“straight talk” about The Four Seasons and Frankie Valli;
a push-back against the “bogus biographies perpetrated”
by others. That was not the way that Corbello, herself,
presented it to other publishers; she used the same form
letters that Woodard had sent. Compare Supp.ER.96-97
with Supp.ER.102-03.
And, what was specifically listed on the letter’s
attachment (Supp.ER.98-99) among the “truths” disclosed
by the Autobiography? Some of the very same things that
Petitioner now wants to call “fiction.” For example: the
stories behind the Band’s songs Sherry, Big Girls Don’t
Cry, Dawn and, of course, “Walk Like a Man.” Also
specifically called out in Woodard’s letters as “truth”
was the fake shooting in the car story. Supp.ER.96;
Supp.ER.101. The Ninth Circuit immediately recognized
these as unprotected historical events. Indeed, as the
Respondents’ own stories. 3
DeVito, at the time of his deposition, the only living
author of the Work, said of his work with Woodard: “I just
don’t want anything in there that isn’t true and I don’t
3. What makes this case so peculiar is that Petitioner claims
to own the Respondents’ own stories about their own lives. It is
not the kind of case that one is likely to see again.

11
want anything in there that’s made up or anything like
that. I want it about my life story ‘cause that’s my life.”
ER5159, at 9-12. DeVito’s only cavil with Woodard was that
Woodard tried to remove curse words from what DeVito
said. Otherwise, DeVito affirmed that what was reported
in the Autobiography was “true.” ER5041.
At trial Petitioner offered no evidence, beyond
counsels’ speculation, that Woodard fictionalized anything.
Corbello admitted she could not say what if anything was
fiction. ER5234; ER5266. Indeed, counsel’s decision to
discredit Woodard’s integrity as a journalist is a rather
striking choice of tactic.
So, Plaintiff’s counsel had to work around that
inconvenient truth. To do that they spent much time in
the near 35 depositions they noticed trying to find points
of disputed fact,4 and to conclude from them that the
Autobiography must have been “fictionalized.” But that
does not make them “fiction.” See App. 19a-27a (citing
Nash; Hoehling; Idema v. Dreamworks Inc., 162 F. Supp.
2d 1129, 1183 (C.D. Cal. 2001); Houts v. Universal City
Studios, Inc., 603 F. Supp. 26, 30–31 (C.D. Cal. 1984); Lake
v. Columbia Broad. Sys., 140 F. Supp. 707, 708–09 (S.D.
4. Disputed facts do not become fiction because they are
disputed. Discredited histories are not simply reshelved by
publishers in the fiction section of a bookstore. The process of
historical writing is often about disputed events. Statements
asserted as fact may or may not turn out to be true, but they are
nonetheless factual statements. The whole premise of defamation
law is that false statements of fact can be actionable. They are not
viewed as “fiction” or opinion unless a reasonable reader would see
them as fiction or opinion. And no reasonable person would have
any basis for thinking that here. All the evidence in the record
was to the contrary.

12
Cal. 1956); Oliver v. Saint Germain Found., 41 F. Supp.
296, 299 (S.D. Cal. 1941). The Ninth Circuit rejected this
disingenuous maneuver. Trial time too was wastefully
occupied with the same casuistry.
This canard is at the heart of Petitioner’s “estoppel”
argument: that an historical fact asserted to be true
can nevertheless be called “fiction” until it is actually
published (or gets a publishing deal). The thought is
specious. It would mean that historians doing research
on unpublished works cannot rely on them as factual,
but must contemplate that the owner can sue them for
infringement and later claim that some of the “facts”
used were actually “fiction.” Courts reject that. App. 25a.
The Autobiography forcefully declared its factual
status. That should end the analysis. The serious
assurances given to publishers that the Work was nonfiction, if made up, as Petitioner now claims, would
subject Woodard and any publisher that published it as
“non-fiction” to serious ethical and legal repercussions.
(For example, James Frey’s A Million Little Pieces; full
refunds were given to deceived readers by the publisher
after the claimed true-life memoir was exposed as filled
with fabrications.) Petitioner proposes that this Court
should approve of Petitioner’s maneuver. But it is unethical
to recast a non-fiction work as a fiction work; or to sell it
to a publisher as non-fiction and then announce that it was
really “fiction.” That duplicity would be a breach of any
publishing contract. There is nothing innocent about it.

13
PETITIONER’S “FICTION” PLOY DESERVES NO
ATTENTION FROM THIS COURT
Petitioner’s “fiction” ploy made for needless discovery,
protracted the trial and confused the jury’s task. The
Ninth Circuit correctly rejected this ploy and called it
for what it was - unsupported in the record and legally
baseless.
The district court JMOL Ruling recognized them
as problematic. Commenting on the “Walk Like a Man”
dialogue, for instance, the district court observed that
while the jury might have believed that dialogue to be
“fiction,” such a finding was “perhaps not even permissible
given the work’s claim of historical accuracy.” ER28.
Courts have uniformly treated quotations presented
as accurate reconstructions of actual conversations—
as are those in the Autobiography—as facts. Where a
work reconstructs historical conversations and presents
dialogue as “actual quotations by real people,” such
dialogue “is not protectable by copyright.” Crane, 593 F.
Supp. 2d at 595 (dialogue surrounding the death of Pope
John Paul presented as fact, treated as fact, not fiction).
Another court pointed out:
plaintiff argues that since the book contains
many examples of conversations and events that
the author and Dr. Helpern [whose “true-life
stories” the book represented to contain] could
not possibly have been present to experience,
the book is clearly fictional. This, however, is
the very nature of biographical works that
involve any historical perspective. All historical

14
renditions would be deemed fictionalized under
plaintiff’s theory merely because the author was
not there personally.
Houts, 603 F. Supp. at 30, 31 (granting summary
judgment). The same holds for the Autobiography’s
purportedly “invented” dialogue, which was touted by its
author and Petitioner as truth.
Another maneuver by Petitioner is to claim that
if an account of an event was disputed, challenged or
“erroneous,” it is protected “fiction.” OB5, 7, 13. But
this case is not about proving the “true history” of The
Four Seasons. It does not matter if the Autobiography’s
accounts are “correct or incorrect” Hoehling, 618 F.2d at
979 (novel hypothesis about the cause of the Hindenburg
explosion, presented as fact, treated as fact); nor does it
matter if they are controversial or disputed, provable or
unprovable ; Nash, 899 F.2d at 1541 (novel and dubious
theory that Dillinger survived the Chicago shootout
and lived out his days in California, presented as fact, is
treated as fact; “the first person to conclude that Dillinger
survived does not get dibs on history”).
Even where an “incorrect fact” appears in an
unpublished work, the analysis does not change. Compare
Harper & Row, 471 U.S. at 564, OB55, with Idema, 162
F. Supp. 2d at 1183 (“Plaintiffs cannot claim to have
the exclusive right to exploit these facts for dramatic
purposes, even if Respondents only learned of the alleged
events . . . by reading Plaintiffs’ works.”).
The District Court did not need to invoke the phrase
“copyright estoppel,” as Petitioner seems to believe was
required (OB30, 65), to ultimately reject as a matter of

15
law her remaining claims of infringement of “fictitious”
material. This Court should likewise recognize Petitioner’s
claims as unsupportable.
W H E T H E R A WO R K I S “ P U BL I S H E D ”
OR “ U N PU BLISH ED” IS A M EA N I NGLES S
DISTINCTION IN THIS CASE
It is not clear at all why lack of publication of a work
makes it more likely to be “fiction” or should weigh in favor
of such a claim. Historians regularly research and depend
on unpublished works. Historians like Arthur Schlesinger
and their publishers reacted in horror to decisions like
Salinger v. Random House, Inc., 811 F.2d 90, 98 (2d Cir.
1987). Pet. 6. They urgently pressed for an amendment to
Section 107 to make it clear that unpublished works did
not come in for special protection. They succeeded in 1992
and for good reason the copyright statute was amended
to make it clear that use of unpublished works was not
presumptively unfair. That change in the law also had
implications for how Harper & Row was to be read.
The other non-sensical dimension to Petitioner’s
proposal that a work’s unpublished status supports claims
to “fiction” is that copyrightability is a legal concept
that does not turn on whether something is published or
unpublished. It may have some now diminished bearing
on fair use. But one does not even reach fair use unless
protectable expression has been infringed.
Also, the idea that the Autobiography is “unpublished”
makes no sense. If the Autobiography infringed another
work, then the limited circulation and its marketing would
be deemed a “publication” under copyright law. And if
the Autobiography defamed a person it referred to, its

16
circulation to any third party would be a “publication”
under defamation law. Equating an unpublished work
with a fictional work is flim flam. It is not the stuff that
legitimate certiorari petitions are made of.
PETITIONER’S MISCHARACTERIZATIONS OF
THE RECORD A ND THE IRRELEVA NCE OF
ACCESS WHICH WAS ALWAYS CONCEDED
Petitioner’s statement of the facts and characterizations
of the record should be read with caution: We object to
them because they distort and mischaracterize the
record. They are devoted almost entirely to tendentiously
arguing Petitioner’s access and use case. Respondents
had forthrightly conceded access at all stages of this case.
The only legally material issue is whether any alleged
similarities were protected as a matter of copyright law.
Petitioner played and replayed the access case at every
stage of this proceeding in the hopes that they would
overcome their lack of protectability problem and perhaps
prejudice Respondents.
We will not attempt to chase down each of the
record mischaracterizations here, or to run down all of
Petitioner’s rabbit holes - especially when they have no
bearing on the legal issues at hand. But we broadly object
to them. Rather, we offer these points regarding access
generally.
Any writer, like Brickman and Elice, who does
conscientious research on an historical or biographical
drama will, by definition, have access to all works into
which they conducted research. They will have taken
notes on them. They will thus have made use of them and,
perhaps, have benefitted by it. But that does not establish

17
anything close to infringement; nor should it paint a
bullseye on their backs by virtue of their research. On
this very point, Nimmer observes:
[E]ven where the fact of copying is conceded,
no legal consequences will follow . . . Even
where there is no dispute about a) the validity
of plaintiff’s copyright, b) defendant’s access
to the work, and c) very strong resemblances
between them, the result is only to show
probative similarity—but the court may still
grant summary judgment to the defendant,
as when defendant took only the unprotected
elements of the Plaintiff’s work.
4 Nimmer on Copyright § 13.03[A] at 13-40.1 to 13-40.2
(2017) (emphasis added); AB22.
That is what the Respondent creators of Jersey Boys
did at most. They interviewed Valli, Gaudio, DeVito, and
producer Bob Crewe, among others; they had access to
another unpublished biography of The Four Seasons
(Supp.ER.110); to a prior treatment for the play (ER4647;
Supp.ER.110) as well as numerous articles and online
materials. Woodard himself had 17 ringed notebooks full
of articles and other peoples’ writings about The Four
Seasons, on which he based his own research. ER2574.
Hence, they had “access” to published and unpublished
works; and made “use” of them to gain knowledge about
their subjects.
When Brickman and Elice interviewed DeVito, they
took extensive and detailed notes of what DeVito had
to say. ER10194-10202. At the close of their interview,
DeVito offered to send them a copy of a manuscript of his

18
Autobiography which he had written in the late 80’s with
Woodard. 5 DeVito sent it to them. Much of what DeVito
told the writers in the interview was, naturally, in the
Autobiography as well. The DeVito interview notes reflect
many of the same events referenced in the Autobiography.
DeVito and Valli parted ways in 1972 and had little to
no contact after that. DeVito and his Autobiography were
hostile and extremely negative toward Valli; and blamed
the split up on Valli. The Play reflected this conflict, but
takes Valli and Gaudio’s point of view, blaming DeVito for
the split up and for the Band’s indebtedness to the mob.
Petitioner attempted to get around the thin protection
problem posed by historical works by playing up the
“fiction” ploy and by telling and retelling the “access”
story as they have attempted to do in their Petition. While
copyright plaintiffs generally play their access, use and
5. A reading of the interview notes shows why DeVito wanted
the writers to see his Autobiography. He knew that the Play
would reflect Frankie Valli’s point of view and, specifically, Valli’s
negative view of him. The two had not spoken since their split.
The interview reflects DeVito’s grievance and his effort at selfdefense. He hoped that with his interview and the Autobiography,
the writers might see things more his way. The Play did not turn
out that way. But the writers and director sought to complement
DeVito and to make him feel part of the effort, the Director in
particular, in the hopes that DeVito would appear on stage on the
opening nights – something which he ultimately did in several
cities. Still the Play blames the split on DeVito and his putting
the Band in debt to the mob. In the Autobiography, the debt to
the mob was blamed on a band manager – not Tommy. And in the
Autobiography, the mob sit-down ends with the band unifying
behind Tommy. In the Play, the mob sit-down ends with Tommy
being kicked out of the Band and Frankie taking on the debt. Both
have mob sit-downs, but they end in opposite ways.

19
“inspiration” stories to substitute for copyrightability,
these stories have no bearing on the legal question of
copyrightability. The Ninth Circuit and other courts do
not indulge such efforts.
1. Petitioner insists on arguing “access” when it
has been conceded, as here. Yet, “[n]o amount of proof
of access will suffice to show copying if there are no
similarities.” Funky Films, Inc. v. Time Warner Entm’t
Co., L.P., 462 F.3d 1072, 1081 (9th Cir. 2006).
2 . Petitioner insists on replaying alleged
“admissions” of “copying,” even when such admissions
have no bearing on whether protected expression was
copied. OB16, 17, 19 n.11. In Idema, the defendant writers
and Steven Spielberg admitted that they had “copied” his
work to make their movie.
The Court is even willing to assume, . . . that
Defendants made “use” of Plaintiffs’ works as
source materials during the development of
“The Peacemaker.” . . . The question remains
whether Defendants copied Plaintiffs’
protected expression.
Idema, 162 F. Supp 2d. at 1171 n.44.
3. Petitioner insists on replaying defendants’
statements of being “inspired” by plaintiff’s work.
Petitioner here has repeatedly referenced Des McAnuff’s
praise of the Autobiography as “delicious” and statements
of a writer suggesting that they learned impressive things
from it. But courts have consistently regarded such
allegations as irrelevant to substantial similarity. See
Shipman v. R.K.O. Radio Pictures, Inc., 20 F. Supp. 249,

20
250 (S.D.N.Y. 1937), aff’d, 100 F.2d 533 (2d Cir. 1938) (“If
what the alleged infringer took was not copyrightable,
the copyright owner may not complain, although his work
may have been what directly inspired the work of the
infringer.”) (emphasis added); Sinicola v. Warner Bros.,
Inc., 948 F. Supp. 1176, 1190-91 (E.D.N.Y. 1996) (“even if
the Film were inspired or adapted from the Novel, that
would still not be sufficient. . .”). Musicians and other
artists typically say that they were “inspired” by other
artists, but that does not mean that they plagiarized or
infringed the work of those who inspired them.
4. Petitioner insists on rifling through drafts and
research materials. Respondents view prior drafts and
research as irrelevant to proving substantial similarity in
a final script. In See v. Durang, 711 F.2d 141, 142 (9th Cir.
1983), the Ninth Circuit rejected that a plaintiff was entitled
to discovery of early drafts “on the theory they might reflect
copying from plaintiff’s play that was disguised or deleted
in later drafts.” “Copying deleted or so disguised as to be
unrecognizable is not copying.” Id.; see also Walker v. Time
Life Films, Inc., 615 F. Supp. 430, 434 (S.D.N.Y. 1985), aff’d,
784 F.2d 44 (2d. Cir. 1986); Idema, 162 F. Supp. 2d at 1185
n.67; 4 Nimmer, §13.03[B][1][b].
5. Petitioner insists on replaying suggestions that
defendants wrongly obtained their work. Petitioner’s
claim that the Writers obtained the manuscript through
“false pretenses” is wrong. OB54-55. Even if the Writers
violated some agreement with DeVito (which he has never
complained of), that could have no bearing on a copyright
claim. There is either copying of protected expression or
not. Campbell v. Acuff-Rose Music, Inc., 510 U.S. 569,
at 568 n.18 (1994) also defeats this contention: “[B]eing
denied permission to use a work does not weigh against

21
a finding of fair use.” (emphasis added). And similarly,
it would not weigh against finding no use of protected
expression.
REASONS FOR DENYING THE PETITION
I.

The Ninth Circuit’s Affirmance Creates No “Conflict”
With Other Circuits Or “Tension” With This Court
A.

The Affirmance Is in Accord With the LongFollowed and Consistent Rulings of Other
Circuits and This Court

In her first complaints in this action, Petitioner
touted the Autobiography as the work of a serious music
journalist/historian based on investigative research.
See App. 15(a) (referencing “research notebooks” of
Petitioner’s late husband). She only later started claiming
that the Autobiography was “fictionalized” or “fictitious” as
she and her counsel struggled to deal with the implications
of Feist, Hoehling, Narell, and Benay; and the lesser
protection afforded historical works. Petitioner continues
to press her “fictitious” claims here. See Pet. 3–5, 21, 24,
34, 35. But as the Ninth Circuit observed, “The asserted
facts do not become protectable by copyright even if, as
Corbello now claims, all or part of the dialogue was made
up.” App. 32a.
Thus, both parts of the Ninth Circuit’s affirmance
follow the holdings of this Court and the Second Circuit,
as well as its own prior decisions. See App. 8a–9a, 13a–19a,
20a, 25a, 27a–30a, 32a. The affirmance also is consistent
with decisions of other Circuits that came before it and
that have come since on the free availability of information
that is factual or held out as factually accurate. See, e.g.,

22
Miller v. Univ. City Studios, Inc., 650 F.2d 1365, 1368
(5th Cir. 1981); Nash, 899 F.2d at 1541; Narcos, 833 F.
App’x at 257. See generally U.S. Const. Art. I § 8 (“The
Congress shall have Power . . . to Promote the Progress
of Science and useful Arts, by securing for limited Times
to Authors and Inventors the exclusive Right to their
respective Writings and Discoveries”); Baker v. Selden,
101 U.S. 99, 103 (1879) (“The very object of publishing a
book on science or the useful arts is to communicate to
the world the useful knowledge which it contains. But this
object would be frustrated if the knowledge could not be
used without incurring the guilt of piracy of the book.”).
Certiorari, therefore, should be denied first and
foremost for the case’s sheer unremarkable legal
basis. 6 See App. 3a (“Our decision rests primarily on ‘the
unremarkable proposition that facts, in and of themselves,
may not be form [sic] the basis for a copyright claim.’”),
citing 1 Nimmer on Copyright § 2.11(A).
B. The Tenth Circuit’s Jacobsen Decision Is
Plainly Unhelpful to Petitioner and Is Not in
Conflict with Long-Prevailing Case Law
Petitioner makes two certiorari pitches. Both grossly
distort the facts and holdings below.
First, Petitioner claims that the Ninth Circuit’s
affirmance creates a “conflict” with a single decision,
Jacobsen v. Deseret Book Co., 287 F.3d 936 (10th Cir. 2002).
6. There is yet another reason why this Petition leads
nowhere: On any remand, the Ninth Circuit would have to rule
on the fair use grounds which would readily defeat any claim on
any remaining putative similarities – if such exist.

23
See Pet. 5 n.2, 34–35. Yet unlike the instant case—in which
the Ninth Circuit affirmed a post-trial judgment as a matter
of law—Jacobsen involved a motion to dismiss for failure
to state a claim under Fed. R. Civ. P. 12(b)(6). Compare
App. 32a, with Jacobsen, 287 F.3d at 940–41. The Tenth
Circuit held that defendants “arguably copied more than
a few words and phrases” from the plaintiff’s unpublished
memoir. Id. at 947. See also id. at 945 n.7 (referring to
plaintiff’s work as an “unpublished manuscript”); Jacobsen
v. Deseret Book Co., No. 2:99–CV–893K, 2001 WL 1806858,
at *1-2 (D. Utah Jan. 12, 2001) (noting that the plaintiff
had distributed 75 copies of a revised manuscript to family
and friends, and that one defendant had encouraged him
to publish his memoir). But the Tenth Circuit noted that
whether dialogue at issue was original expression could
not be determined at that stage of the litigation, because
it turned, “at least in part, on additional evidence to be
presented at trial.” Jacobsen, 287 F.3d at 947.7
Here, in contrast, there was a trial. Evidence showed
that the other members of The Four Seasons had been
telling the same stories themselves for years, and
recalled the events and conversations as having occurred
with substantially similar words as reported in the
Autobiography. The Autobiography also represented itself
as true, as did Petitioner and her late husband in letters
to nearly 30 prospective publishers. See App. 30a–31a. 8
7. The Tenth Circuit gave the Jacobsen plaintiff’s statements
no special allowance for their being as yet unpublished. Nor did
it give the plaintiff any license of the type Petitioner asks of this
Court (see Pet. 5 n.1), to reserve the statements at issue upon
publication or disclaim them as fictional or dramatized.
8. Moreover, the first time Frankie Valli and Bob Gaudio
reviewed the Autobiography was at their depositions. See App. 81a.

24
Ultimately, both courts below concluded that
statements like “social movement” or “‘Well, asshole,
what do you plan to do about it?’”—the supposedly
“original expression” of the Autobiography—only involved
“ordinary phrases” that were not protectible as a matter of
law. See App. 17a, 29a–30a, 32a, citing Narell, 872 F.2d at
911, 912; cf. Jacobsen, 287 F.3d at 947. This case does not
involve potentially “reconstructed” dialogue of the type or
caliber that the Tenth Circuit in Jacobsen concerned itself
with. Compare Pet. 5 n.2, with Jacobsen, 287 F.3d at 947;
see App. 25a (the Autobiography “purports to accurately
document conversations in which its co-author, DeVito,
actually participated”).
With respect to “ordinary phrases” and clichés, this
case is the latest in a line that courts unfortunately have
had to consider for more than a century, involving lists
of purportedly actionable similarities that are “not only
unpersuasive, but in many parts silly.” See Bachman v.
Belasco, 224 F. 817, 818 (2d Cir. 1915) (dismissing copyright
infringement action against play over commonality between
statements such as “‘She is in a highly nervous condition,’”
and “‘He will probably be in a highly nervous state.’”).
C.

The Ninth Circuit’s Affirmance Would Not Alter
Harper & Row

Second, Petitioner claims the Ninth Circuit’s
affirmance creates “tension” with the Court’s fair use
decision in Harper & Row. Pet. 5, 34. She claims the
statements at issue are “subjective portraits of real
persons,” in an attempt to liken them to the author’s
own “reflections” and “perceptions” that the Harper &
Row majority found expressive. However—much more
so than in Harper & Row—much of the material at issue

25
here is “matter-of-fact representation of the words of
others . . . ; such quotations are ‘arguably necessary
adequately to convey the facts,’ . . . and are not rich in
expressive content.” Harper & Row, 471 U.S. at 598 ; 105
S.Ct. at 2250 (Brennan, J., dissenting). To the extent the
Autobiography contained “reflection,” the Play did not use
it. See, e.g., App. 26a–27a (“The only similarity between”
the Autobiography’s account of someone Frankie Valli
dated and a composite girlfriend character in the Play
“is the fact that Valli asked DeVito about a woman named
Mary”); 30a–31a (band discussion about title and subject
matter of song “Walk Like A Man”).
Quite significantly, the Harper & Row Court did
not treat or regard “quotes attributed by President
Ford to third persons” as among the protected parts of
the Ford Memoir. 471 U.S. at 570. They were excluded
from the analysis, along with “quotes from Government
documents.” Id. Neither are protected by copyright.
But here, Corbello seeks ownership of quotes attributed
to third persons. They are expressly excluded from
protection under Harper & Row.
Petitioner is incorrect that the Ninth Circuit’s holding
would have altered the Harper & Row outcome. Pet. 6
n.3. In his contract with Harper & Row, President Ford
expressly acknowledged that his work would contain
“unique information not previously disclosed about
Author’s career and personal life.” Harper & Row, 471
U.S. at 603; 105 S.Ct. at 2252 (Brennan, J., dissenting)
(emphasis added).9 However, the impact on copyrightability
9. Petitioner ignores that in response to Salinger v. Random
House, Inc., 811 F.2d 90, 98 (2d Cir. 1987) (Pet. 6), Congress
amended 17 U.S.C. § 107 to state that “The fact that a work is

26
of the material’s nature as “information” was an issue
that the majority concluded it “need not reach,” because
the defendant had admitted to using “generous verbatim
excerpts” of President Ford’s manuscript. Id. at 548–49;
2224. “[T]he fact that a substantial portion of the infringing
work was copied verbatim is evidence of the qualitative
value of the copied material,” the Harper & Row majority
observed. Id. at 565; 2233. Indeed, the bulk of the Nation’s
article consisted of direct verbatim paragraphs lifted from
the manuscript, along with paraphrasing and with barely
any comment of any kind. See id. at 570. This case involves
no such “verbatim” copying. See Pet. 6. 10
In the end, this is not a case of authored “dialogue
. . . now resid[ing] in the public domain” as a result of the
Ninth Circuit’s holding, as Petitioner contends. Pet. 25.
Rather, this is a case of a claimant misusing copyright
law and twisting Harper & Row to unfairly claim adverse
possession of other people’s life stories. The Court should
not indulge this casuistry.
unpublished shall not itself bar a finding of fair use if such finding
is made upon consideration of all the above factors.” See 17 U.S.C.
§ 107; “Fair Use of Unpublished Works,” PL 102–492, Oct. 24,
1992, 106 Stat. 3145. The amendment “was introduced as a result
of concerns by some biographers, historians, and publishers” over
limitations suggested by the Salinger decision on “their ability to
use unpublished primary source material.” H.R. REP. 102-836, 4,
1992 U.S.C.C.A.N. 2553, 2555.
10. Harper & Row differs from the instant case in another
highly significant respect: President Ford never later speculated
through counsel that his own work had been “fictitious,” as
Petitioner has done here, in a specious and desperate bid for
copyright protectability. Pet. 21, 24, 34–35. And Harper & Row
makes clear that President Ford’s quotes of third parties were
not protected.

27
CONCLUSION
This case turns on copyrightability of historical,
biographical and factual works. There is nothing new at
issue here in the long and consistently followed historical
works line of case law relied on by the Circuit; there is no
novel or critical question of law to be untangled. The facts,
as they are carefully detailed by the Circuit, preclude that.
The Petition should be denied.
Respectfully submitted,
Daniel M. Mayeda
Louis P. Petrich
Ballard Spahr LLP
2029 Century Park East,
Suite 1400
Los Angeles, CA 90067
(424) 204-4400

David S. Korzenik
Counsel of Record
Terence P. Keegan
Zachary M. Press
Miller Korzenik Sommers
Rayman LLP
The Paramount Building
1501 Broadway, Suite 2015
New York, NY 10036
(212) 752-9200
dkorzenik@mkslex.com

Todd E. Kennedy
Maximiliano D. Couvillier III
Kennedy & Couvillier, PLLC
3271 E. Warm Springs Road
Las Vegas, NV 89120
(702) 605-3440
Counsel for Respondents
June 4, 2021

